<html>
<title> - NOMINATION OF THE HONORABLE RUSSELL T. VOUGHT, OF VIRGINIA, TO BE DIRECTOR OF THE OFFICE OF MANAGEMENT AND BUDGET</title>
<body><pre>[Senate Hearing 116-439]
[From the U.S. Government Publishing Office]



                                                                  S.  HRG.  116-439

 
                    NOMINATION OF THE HONORABLE RUSSELL T. VOUGHT, OF VIRGINIA,                           
                    TO BE DIRECTOR  OF  THE  OFFICE  OF  MANAGEMENT AND BUDGET
     ====================================================================================


                                           HEARING & EXECUTIVE
                                            BUSINESS MEETING
                                              BEFORE  THE
                                              
                                       COMMITTEE  ON  THE  BUDGET
                                        UNITED  STATES  SENATE 
                                        
                                    ONE  HUNDRED  SIXTEENTH  CONGRESS
                                    
                                             SECOND  SESSION                                             
                                              ____________

                     June 3, 2020-HEARING ON THE NOMINATION OF THE HONORABLE               
                     RUSSELL T. VOUGHT,OF VIRGINIA, TO BE DIRECTOR OF THE OFFICE 
                                        OF MANAGEMENT AND BUDGET                     
  
                    June 11,2020-EXECUTIVE BUSINESS MEETING TO CONSIDER THE NOMINATION 
                    OF THE HONORABLE RUSSELL T. VOUGHT,OF VIRGNIA TO BE DIRECTOR
                             OF THE OFFICE OF MANAGEMENT AND  BUDGET
                             
                             
                             
 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





                 Printed  for  use  of  the  Senate  Budget  Committee

                                        ______

                          U.S. GOVERNMENT PUBLISHING OFFICE 
42-251                            WASHINGTON : 2020 



[TEXT NOT AVAILABLE REFER TO PDF] 




</pre></body></html>
